                     The Implementation of the Offer in
                 Compromise Application Fee Reduced the
                 Volume of Offers Filed by Taxpayers at All
                              Income Levels

                                     June 2005
                       Reference Number: 2005-30-096




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       June 14, 2005


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - The Implementation of the Offer in
                                    Compromise Application Fee Reduced the Volume of Offers
                                    Filed by Taxpayers at All Income Levels (Audit # 200430018)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      Offer in Compromise (OIC) application fee. The overall objectives of this review were to
      determine whether the implementation of the OIC application fee effectively reduced the
      OIC workload without impeding taxpayer rights and whether the IRS established
      adequate internal controls over the receipt, return, deposit, and, if necessary, refund of
      the OIC application fee payments.
      In summary, the overall number of OICs filed since the implementation of the OIC
      application fee has declined by 28 percent. There were 68,449 OICs received during
      the pre-OIC application fee period of November 1, 2002, through June 30, 2003. In
      contrast, there were only 49,267 OICs received during the post-OIC application fee
      period of November 1, 2003, through June 30, 2004.
      We analyzed the OICs by income levels and determined that filings by taxpayers at all
      income levels had declined by a range of 20 to 33 percent. For example, there was a
      25 percent decline in the volume of OICs filed by taxpayers with an income level greater
      than or equal to $70,000 and less than $100,000. However, we noted that taxpayers
      whose income was below the poverty level1 were more affected than taxpayers above
      the poverty level. Filings by taxpayers below the poverty level declined by 36 percent,
      while filings by taxpayers above the poverty level declined by only 26 percent.2 Since

      1
       Poverty-level guidelines are established by the Department of Health and Human Services.
      2
       These percentages are based on the poverty-level guidelines that consider family unit size rather than our original
      analysis of income, which is only by income levels.
                                                         2

poverty-level taxpayers are exempt from the $150 OIC application fee, it is not clear
why there was a more significant decline in OIC filings by this group of taxpayers. It is
possible that initially some poverty-level taxpayers were not aware of the exemption.
However, beginning in early 2004, the IRS conducted a media campaign to advise
taxpayers of the OIC eligibility requirements and the exemption.
The IRS successfully implemented the OIC application fee process by developing the
proposal for regulations, obtaining input from stakeholders such as the tax practitioner
community, developing instructions for the OIC application, training employees, and
providing oversight during the implementation phase. In addition, adequate controls
and procedures were generally established to account for OIC application fee
payments. However, the IRS could improve some procedural weaknesses over the
security of the OIC application fee payments. Security provisions at both locations were
not fully adequate to prevent remittances from being lost or stolen without detection.
We recommended the Director, Customer Account Services, develop procedures to
ensure personal checks being returned to taxpayers are immediately stamped
“Non-negotiable” when they are removed from the secure cabinet and should also
develop procedures to ensure negotiable instruments being returned to taxpayers are
sealed in secure mailing packages as soon as they are removed from the secure
cabinet. The Director, Campus Compliance Services, should ensure the process of
sorting new OICs has been moved into the Centralized OIC3 (COIC) Unit area.
Management’s Response: IRS management agreed with our recommendations.
IRS management added an addendum to the Standard Operating Procedures to have
checks that have not been stamped “Non-negotiable” upon receipt be held in locked
containers. The Standard Operating Procedures were also amended to have the mail
clerk and shipping clerk jointly verify that the money order, bank check, or government
check is in the envelope and together seal the envelope and place it in the United
Parcel Service overnight bag for shipment to the taxpayer. The process for sorting new
OICs was also moved to the COIC Unit area. Management’s complete response to the
draft report is included as Appendix IV.
Copies of this report are also being sent to IRS officials affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Rich Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.



3
 In July 2001, the IRS began using the COIC Units at the Brookhaven, New York, and Memphis, Tennessee,
Campuses to perform the initial processing of all OICs. The campuses are the data processing arm of the IRS. They
process paper and electronic submissions, correct errors, and forward data to the Computing Centers for analysis and
posting to taxpayer accounts.
  The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
                     Offers Filed by Taxpayers at All Income Levels




                                               Table of Contents


Background ............................................................................................... Page 1
Although Offer Receipts Declined Across All Income Levels,
Poverty-Level Taxpayers Were More Affected Than Others ..................... Page 2
The Policy of Charging Application Fees for
Offers in Compromise Was Effectively Implemented ................................ Page 4
Controls and Procedures Are Adequate for Processing
Offer in Compromise Application Fee Payments; However, a Few
Minor Security Issues Need to Be Addressed ........................................... Page 5
         Recommendations 1 through 3:.......................................................Page 8

Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 9
Appendix II – Major Contributors to This Report ....................................... Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Management’s Response to the Draft Report .................... Page 13
  The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
                     Offers Filed by Taxpayers at All Income Levels

                                 An Offer in Compromise (OIC) is an agreement between the
Background
                                 Internal Revenue Service (IRS) and a taxpayer that settles a
                                 tax liability for payment of less than the full amount owed.
                                 The IRS is granted authority to compromise tax liabilities in
                                 26 United States Code Section 7122 (2002).
                                 The IRS estimates even the simplest OIC request costs
                                 approximately $500 to process, and a complex OIC costs
                                 much more. In 2002, the IRS requested permission from the
                                 Department of the Treasury and the Office of Management
                                 and Budget to begin charging an OIC application fee to
                                 defray some of the OIC program cost. The IRS invited the
                                 public and tax professionals to provide their reaction and
                                 comments. Formal hearings on the OIC application fee
                                 request were held in February 2003 and, despite widespread
                                 opposition, the $150 OIC application fee was implemented.
                                 One of the concerns was that low-income taxpayers such as
                                 those below the poverty level would not file OICs because
                                 of the application fee. As a result, the IRS exempted those
                                 below the poverty level from having to pay the fee.
                                 The OIC application fee is required for all OICs postmarked
                                 after November 1, 2003. The funds will be used to
                                 reimburse the IRS for part of the expense of running the
                                 OIC program. The IRS expects the OIC application fee will
                                 deter unreasonable or frivolous OICs, thus allowing the
                                 available OIC staff to better handle the workload.
                                 This review was performed in the Centralized Offer in
                                 Compromise (COIC)1 Units at the Brookhaven, New York,
                                 and Memphis, Tennessee, Campuses during the period
                                 September 2004 through January 2005. The audit was
                                 performed in accordance with Government Auditing
                                 Standards. Detailed information on our audit objectives,
                                 scope, and methodology is presented in Appendix I. Major
                                 contributors to the report are listed in Appendix II.




                                 1
                                  In July 2001, the IRS began using the COIC Units at the Brookhaven
                                 and Memphis Campuses to perform the initial processing of all OICs.
                                 The campuses are the data processing arm of the IRS. They process
                                 paper and electronic submissions, correct errors, and forward data to the
                                 Computing Centers for analysis and posting to taxpayer accounts.

                                                                                                  Page 1
  The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
                     Offers Filed by Taxpayers at All Income Levels

                                 One of the IRS’ goals in implementing the $150 OIC
Although Offer Receipts          application fee was to reduce the volume of frivolous OIC
Declined Across All Income       filings. Through analysis of data maintained on the
Levels, Poverty-Level            Automated Offer in Compromise (AOIC)2 system, we
Taxpayers Were More Affected     determined the volume of OICs received declined
Than Others                      28 percent after implementation of the OIC application fee.
                                 More specifically, there were 68,449 OICs received during
                                 the pre-OIC application fee period of November 1, 2002,
                                 through June 30, 2003.3 In contrast, there were only
                                 49,267 OICs received during the post-OIC application fee
                                 period of November 1, 2003, through June 30, 2004. The
                                 difference of 19,182 applications represents a 28 percent
                                 decline in receipts.
                                 We obtained income data for 61,633 (90 percent) of the
                                 pre-OIC application fee OICs and 44,385 (90 percent) of the
                                 post-OIC application fee OICs. Income data were not
                                 available for the remaining OICs because the taxpayers had
                                 not filed the related returns. We stratified the data for each
                                 category based on differing levels of income and determined
                                 filings by taxpayers at all income levels had declined by a
                                 range of 20 to 33 percent.
                                 For example, there was a 29 percent decline in the volume
                                 of OICs filed by taxpayers with an income level greater than
                                 or equal to $10,000 and less than $20,000. There was also a
                                 25 percent decline in the volume of taxpayers filing OICs
                                 with an income level greater than or equal to $70,000 and
                                 less than $100,000. See Figure 1 for additional details.




                                 2
                                   An IRS computer system used to track and control OICs.
                                 3
                                   We limited our selection of pre-OIC application fee cases to those
                                 received between November 1, 2002, and June 30, 2003. We placed this
                                 limit on our selection to mirror the time period used for selecting
                                 post-OIC application fee cases (cases received between
                                 November 1, 2003, and June 30, 2004).
                                                                                             Page 2
The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
                   Offers Filed by Taxpayers at All Income Levels

                                                   Figure 1: OICs Filed by Income Level
                                          Income Level                Pre-OIC     Post-OIC Percentage
                                                                     Application Application Decline
                                                                     Fee Cases Fee Cases
                                                   < $10,000               8,476       6,792       20%
                                     ≥ $10,000 and < $20,000               8,612       6,136       29%
                                     ≥ $20,000 and < $30,000               9,398       6,437       32%
                                     ≥ $30,000 and < $40,000               8,566       5,753       33%
                                     ≥ $40,000 and < $50,000               7,042       4,838       31%
                                     ≥ $50,000 and < $70,000               8,867       6,348       28%
                                    ≥ $70,000 and < $100,000               5,771       4,327       25%
                                   ≥ $100,000 and < $200,000               3,913       2,984       24%
                                                  ≥ $200,000                 988         770       22%
                                                       Total              61,633      44,385       28%
                               Source: Treasury Inspector General for Tax Administration (TIGTA)
                               analysis of the Individual Master File (IMF) Returns Transaction File
                               (RTF).4

                               The decline in OIC filings by taxpayers at all income levels
                               may indicate the IRS was successful at reducing frivolous
                               OIC filings. The IRS has not yet performed an analysis to
                               determine whether frivolous OIC filings have been reduced.
                               However, we noted taxpayers whose income was below the
                               poverty level were more affected than taxpayers above the
                               poverty level. Figure 2 shows the poverty level defined by
                               the Department of Health and Human Services for each
                               state.
                                                 Figure 2: 2004 Poverty-Level Guidelines
                                                                     48 Contiguous States and
                                          Family Unit Size            the District of Columbia    Hawaii    Alaska
                                                  1                            $9,310            $10,700   $11,630
                                                  2                           $12,490            $14,360   $15,610
                                                  3                           $15,670            $18,020   $19,590
                                                  4                           $18,850            $21,680   $23,570
                                                  5                           $22,030            $25,340   $27,550
                                                  6                           $25,210            $29,000   $31,530
                                                  7                           $28,390            $32,660   $35,510
                                                  8                           $31,570            $36,320   $39,490
                                   For each additional person, add             $3,180             $3,660    $3,980
                               Source: The Department of Health and Human Services.

                               Based on these guidelines, our analysis of income data
                               (as shown in Figure 3) indicates filings by taxpayers below
                               the poverty level declined by 36 percent, while filings
                               by taxpayers above the poverty level declined by only
                               26 percent.


                               4
                                   An IRS program that receives individual tax return data.
                                                                                                           Page 3
  The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
                     Offers Filed by Taxpayers at All Income Levels

                                               Figure 3: OICs Filed by Poverty Level
                                        Poverty Level        Pre-OIC     Post-OIC Percentage
                                                            Application Application Decline
                                                            Fee Cases Fee Cases
                                              Below Poverty      12,133       7,723       36%
                                              Above Poverty      49,500      36,662       26%
                                                      Total      61,633      44,385       28%
                                 Source: TIGTA analysis of the IMF RTF.

                                 Since poverty-level taxpayers are exempt from the
                                 $150 OIC application fee, it is not clear why there was a
                                 more significant decline in OIC filings by this group of
                                 taxpayers. It is possible that initially some poverty-level
                                 taxpayers were not aware of the exemption. However,
                                 beginning in early 2004, the IRS conducted a media
                                 campaign to advise taxpayers of the OIC eligibility
                                 requirements and the exemption. In September 2004, the
                                 IRS began distribution of a new Offer in Compromise
                                 (Form 656). The new Form 656 provides taxpayers the
                                 exemption form, Income Certification for Offer in
                                 Compromise Application Fee (Form 656-A), as well as the
                                 Offer in Compromise (OIC) Application Fee Worksheet
                                 with instructions for requesting an exemption from the OIC
                                 application fee based on income.
                                 The IRS has successfully implemented the policy of
The Policy of Charging
                                 charging an OIC application fee for OICs. Proposed
Application Fees for Offers in
                                 regulations were developed in November 2002 that
Compromise Was Effectively
                                 incorporated input from Congressional Committees, the tax
Implemented
                                 practitioner community, Low-Income Tax Clinics, and the
                                 National Taxpayer Advocate. The fee was announced in the
                                 Federal Register and the public was invited to comment for
                                 90 days. Public hearings on the proposed regulations were
                                 held in February 2003.
                                 The IRS has taken several actions to effectively implement
                                 the new OIC application fee. A new form, Form 656-A,
                                 was developed and included in the OIC package to help
                                 taxpayers determine if they qualify for the low-income
                                 exemption. Another new form, COIC Application Fee
                                 Tracking Report (Form 13479), was also developed to
                                 record and control the receipt of the fee.
                                 Employees were provided training on the new OIC
                                 application fee procedures. As these procedures were being
                                 implemented, analysts were onsite to address any problems
                                                                                       Page 4
  The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
                     Offers Filed by Taxpayers at All Income Levels

                                   and provide guidance. As needed, procedure modifications
                                   were discussed through conference calls between the
                                   analysts and Campus management. A memorandum was
                                   issued providing additional procedural guidance in
                                   January 2005. Through follow-up visitations, analysts have
                                   also made recommendations to improve the OIC program at
                                   both Campuses. One recommendation was to establish
                                   procedures to expedite processability5 determinations for
                                   OICs with a $150 OIC application fee that are received in
                                   the COIC Unit later than 14 days from the date of IRS
                                   receipt.
                                   The IRS has generally developed adequate internal controls
Controls and Procedures Are
                                   over the OIC application fee to safeguard the Federal
Adequate for Processing Offer in
                                   Government’s interest and protect taxpayers’ rights. Also
Compromise Application Fee
                                   the IRS was generally effective in accounting for OIC
Payments; However, a Few Minor
                                   application fee payments. However, we identified a few
Security Issues Need to Be
                                   minor procedural weaknesses in the security of OIC
Addressed
                                   application fee payments that need to be addressed.
                                   Controls and procedures are adequate for processing
                                   OIC application fee payments
                                   The COIC Units at both Campuses established a restricted
                                   access area that receives all new OICs. Upon receipt, OICs
                                   are date stamped, sorted, batched, and input to the AOIC
                                   system for control purposes. The OICs with an OIC
                                   application fee payment are also recorded on Form 13479.
                                   Additionally, when the OIC packages are forwarded for
                                   processing, the actual remittances (e.g., personal check,
                                   money order, or bank check) are maintained in a locked
                                   cabinet within the restricted access area at each COIC Unit.
                                   The remittances remain there until OIC processability has
                                   been determined.
                                   Remittances for the OICs determined to be non-processable
                                   are to be returned to the taxpayer. Remittances in the form
                                   of a personal check are stamped “Non-negotiable” and


                                   5
                                     “Processable” OICs meet 5 criteria: 1) taxpayer has filed all required
                                   returns, 2) taxpayer is not in bankruptcy, 3) current Form 656 was
                                   used, 4) Collection Information Statement for Wage Earners and
                                   Self-Employed Individuals (Form 433-A) and/or Collection Information
                                   Statement for Businesses (Form 433-B) was used, and 5) $150 OIC
                                   application fee was paid.
                                                                                                   Page 5
The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
                   Offers Filed by Taxpayers at All Income Levels

                               mailed back to the taxpayer with the OIC package using
                               regular mail. Other remittances, such as money orders
                               or bank checks, would be voided if they were stamped
                               “Non-negotiable.” Therefore, these types of remittances are
                               enclosed with the OIC package unstamped and mailed back
                               to the taxpayer using secure mail.
                               Application fees for the OICs determined to be processable
                               are sent to the Submission Processing function to be
                               deposited in the IRS OIC Application Fee account. We
                               analyzed 139 OIC application fee payments received in the
                               2 COIC Units from January 1, 2004, through July 2, 2004,
                               and determined 134 (96 percent) were deposited in the
                               correct account. We determined the remaining five OIC
                               application fee payments, all from the same Campus, were
                               posted incorrectly to the IRS Photocopy Fee account.
                               However, the Accounting function had either corrected or
                               was in the process of correcting the posting for three of the
                               five OIC application fee payments. We informed the
                               Accounting function of the other two OIC application fee
                               payments, and it agreed to correct them.
                               Procedures require the IRS to deposit the OIC application
                               fee payment within 14 days from the date it receives an
                               OIC. The COIC Units are using the Undetermined Offers –
                               Detailed Listing6 as an overage report to identify OICs that
                               need to be expedited. In our analysis of the 139 OIC
                               application fee payments, we determined both COIC Units
                               were meeting this goal. We also reviewed another 38 OIC
                               application fee payments that were identified as being
                               returned to the taxpayers. We confirmed, through Forms
                               13479, that all 38 were determined to be non-processable
                               and all related OIC packages and application fees were to be
                               returned to the taxpayers.
                               We reviewed the Undetermined Offers – Detailed Listings
                               as of September 17 and 27, 2004, for the Brookhaven and
                               Memphis Campuses, respectively. We identified
                               14 Brookhaven OIC application fee payments and

                               6
                                The Undetermined Offers – Detailed Listing is an AOIC system report
                               of OICs that have not had the processability determined. The report is
                               used to identify OICs that need to be expedited. The co-located COIC
                               Units use the report to identify OICs with a $150 OIC application fee
                               payment that is near or has exceeded the 14-day deposit criteria.
                                                                                              Page 6
The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
                   Offers Filed by Taxpayers at All Income Levels

                               19 Memphis OIC application fee payments with IRS
                               received dates over 12 days. We verified that appropriate
                               and timely actions were taken on all 33 payments.
                               Security over OIC application fee payments needs to be
                               improved
                               We identified concerns over security of OIC application fee
                               payments that need to be addressed at both Campuses. At
                               one Campus, there was a security issue related to
                               maintaining the fees in a locked container. At the other
                               Campus, there was a security issue related to separation of
                               duties.
                               The IRS is required to maintain remittances received for
                               payment of taxes within a locked container. Both Campuses
                               stored OIC application fees in locked cabinets with
                               controlled access. However, at one Campus, security
                               weaknesses provided opportunity for inappropriate access
                               by IRS employees working within the restricted area.
                               In one instance, checks being returned to taxpayers with
                               non-processable OIC packages were not immediately
                               stamped “Non-negotiable” when they were removed from
                               the locked cabinet. Instead, the clerk would place them on a
                               table and wait until the end of the day to stamp all of the
                               checks “Non-negotiable.”
                               In another instance, money orders and bank checks
                               (negotiable instruments) being returned to taxpayers with
                               non-processable OIC packages were not immediately
                               shipped when they were removed from the locked cabinet.
                               Instead, the clerk sealed the envelopes with cellophane tape.
                               As with the “Non-negotiable” checks, the negotiable
                               instrument packages were left out until the end of the day
                               when the clerk would place them on the mail clerk’s desk.
                               The mail clerk would place the envelopes into secure
                               mailing packages for shipping.
                               In both instances, IRS management believed the controls in
                               place were sufficient to provide for a separation of duties
                               and to limit access to the OIC application fee payments.
                               At the other Campus, one COIC Unit clerk was responsible
                               for sorting new OICs with OIC application fee payments,
                               inputting them into the AOIC system, and recording OIC
                                                                                     Page 7
The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
                   Offers Filed by Taxpayers at All Income Levels

                               application fees on Form 13479. In accordance with the
                               Standards for Internal Control in the Federal Government,
                               key duties should be assigned to separate individuals. This
                               helps to minimize the possibility of fraud, waste, or abuse
                               going undetected. A factor that compounds this condition is
                               the clerk conducted the sort in a secluded area of the mail
                               room. To reduce the opportunity for misappropriating the
                               OIC application fee payments, we suggested the clerk be
                               limited to performing only the sort. IRS management
                               informed us this was not a viable solution but proposed
                               having the clerk conduct the sort within the COIC Unit area.

                               Recommendations

                               The Director, Customer Account Services, should:
                               1. Develop procedures to ensure taxpayers’ returned
                                  personal checks are immediately stamped
                                  “Non-negotiable” when they are removed from the
                                  secure cabinet.
                               Management’s Response: IRS management issued an
                               addendum to the Standard Operating Procedures requiring
                               checks that are not stamped “Non-negotiable” upon receipt
                               must be held in a locked container.
                               2. Develop procedures to ensure taxpayers’ returned
                                  negotiable instruments are immediately sealed in secure
                                  mailing packages as soon as they are removed from the
                                  secure cabinet.
                               Management’s Response: IRS management amended the
                               Standard Operating Procedures to state, “The mail clerk will
                               bring an unsealed white envelope from the secured cabinet to
                               the shipping clerk who will verify that the money order, bank
                               check or government check is in the envelope. Together the
                               two clerks seal the envelope, and place it in the United Parcel
                               Service overnight bag for shipment to the taxpayer.”
                               The Director, Campus Compliance Services, should:
                               3. Ensure the process for sorting new OICs has been
                                  moved into the COIC Unit area.
                               Management’s Response: IRS management has moved the
                               process for sorting new OICs into the COIC Unit area.
                                                                                      Page 8
    The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
                       Offers Filed by Taxpayers at All Income Levels

                                                                                        Appendix I


                            Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether the implementation of the Offer
in Compromise (OIC) application fee effectively reduced the OIC workload without impeding on
taxpayer rights and whether the Internal Revenue Service (IRS) established adequate internal
controls over the receipt, return, deposit, and, if necessary, refund of the OIC application fee
payments. Specifically, we:
I.         Determined whether the implementation of the OIC application fee effectively reduced
           the OIC workload without impeding taxpayer rights.
           A. Obtained a computer extract of 204,877 OICs from the Automated Offer in
              Compromise (AOIC)1 system received during the period October 1, 2002, through
              July 2, 2004. (Note: We limited the post-OIC application fee OICs to those 49,267
              received during the period November 1, 2003, the date the fee was implemented,
              through June 30, 2004. For comparison purposes, we also limited the pre-OIC
              application fee OICs to those 68,449 received during the period November 1, 2002,
              through June 30, 2003.)
           B. Obtained income-level information from the Individual Master File Returns
              Transaction File2 for 44,385 of the post-OIC application fee OIC taxpayers and
              61,633 of the pre-OIC application fee OIC taxpayers identified in Step I.A. Income
              data were not available for the remaining OICs because the taxpayers had not filed
              the related returns.
           C. Determined whether the implementation of the OIC application fee had a limiting
              effect on the types of taxpayers filing OICs from Step I.B.
II.        Determined whether the IRS developed adequate controls over the OIC application fee
           payments to ensure they are either deposited or refunded timely.
           A. Selected a statistically valid sample of 245 OICs, based on a 95 percent confidence
              level with a +5 percent precision level and an estimated error rate of 20 percent, from
              a computer extract of 49,129 OICs from the AOIC system with an IRS received date
              from January 1, 2004, through July 2, 2004.




1
    An IRS computer system used to track and control OICs.
2
    An IRS program that receives individual tax return data.
                                                                                              Page 9
    The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
                       Offers Filed by Taxpayers at All Income Levels

         B. Determined whether timely and appropriate actions were taken on the 245 sample
            OIC cases identified in Step II.A. by analyzing the information from the AOIC
            system Fee screens and History sections.
             1. Determined 177 of the 245 OIC cases included OIC application fee payments and
                the remaining 68 did not.
             2. Determined whether the COIC3 Application Fee Tracking Report (Form 13479)
                was appropriately used to record the receipt of 177 OIC application fee payments.
             3. Determined 139 of the 177 OIC cases with application fee payments were
                identified as processable and the remaining 38 were identified as non-processable.
             4. Determined whether the AOIC system Fee screens properly recorded the OIC
                application fee payments for 139 processable OICs.
             5. Determined whether the OIC application fee payments were deposited timely for
                139 processable OICs.
III.     Determined whether the IRS developed a management information system to alert
         managers to problems that may arise with OIC application fee payments and verified
         whether appropriate and timely actions were taken on 33 OIC application fee payments.
         These payments represent the universe of cases on the Undetermined Offers – Detailed
         Listings,4 with IRS received dates over 12 days, as of September 17, 2004, for the
         Brookhaven Campus (14 cases) and as of September 27, 2004, for the Memphis Campus
         (19 cases).5




3
  Centralized Offer in Compromise (COIC).
4
  The Undetermined Offers – Detailed Listing is an AOIC system report of OICs that have not had the processability
determined. The report is used to identify OICs that need to be expedited. The co-located COIC Units use the
report to identify OICs with a $150 OIC application fee payment that is near or has exceeded the 14-day deposit
criteria.
5
  In July 2001, the IRS began using the COIC Units at the Brookhaven, New York, and Memphis, Tennessee,
Campuses to perform the initial processing of all OICs. The campuses are the data processing arm of the IRS. They
process paper and electronic submissions, correct errors, and forward data to the Computing Centers for analysis and
posting to taxpayer accounts.




                                                                                                           Page 10
 The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
                    Offers Filed by Taxpayers at All Income Levels

                                                                                 Appendix II


                           Major Contributors to This Report

Rich Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker Pearson, Director
Amy Coleman, Audit Manager
Lynn Rudolph, Lead Auditor
Todd Anderson, Senior Auditor
Marcus Sloan, Auditor




                                                                                       Page 11
 The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
                    Offers Filed by Taxpayers at All Income Levels

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Customer Account Services SE:W:CAS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:C




                                                                                 Page 12
The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
                   Offers Filed by Taxpayers at All Income Levels

                                                                      Appendix IV


                  Management’s Response to the Draft Report




                                                                            Page 13
The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
                   Offers Filed by Taxpayers at All Income Levels




                                                                            Page 14
The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
                   Offers Filed by Taxpayers at All Income Levels




                                                                            Page 15
